                                                        OFFICE OF THE ASSISTANT SECRETARY FOR
                                                        ADMINISTRATION AND MANAGEMENT

                                                        EMPLOYMENT AND TRAINING ADMINISTRATION


          Office of Inspector General—Office of Audit




                                                        APPLIED TECHNOLOGY SYSTEMS, INC.
                                                        OVERCHARGED JOB CORPS FOR INDIRECT
                                                        COSTS
NOTICE:




                                                                              Date Issued:   September 24, 2010
                                                                           Report Number:      26-10-006-01-370
US Department of Labor                                September 2010
Office of Inspector General
Office of Audit                                       APPLIED TECHNOLOGY SYSTEMS, INC.
                                                      OVERCHARGED JOB CORPS FOR INDIRECT
                                                      COSTS
BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number 26-10-006-01-370,
to the Deputy Assistant Secretary, Office of the      ATSI did not comply with requirements for
Assistant Secretary for Administrative and            submitting indirect cost proposals annually or
Management (OASAM), and the Assistant                 reporting only allowable indirect costs. ATSI used
                                                      the provisional rates specified in its center/CTS
Secretary, Employment and Training
                                                      contracts to charge Job Corps $9.3 million for its
Administration (ETA).
                                                      estimated indirect costs during CYs 2004-2007. As
                                                      a result of our audit, OASAM notified ATSI that its
WHY READ THE REPORT                                   cost proposals to determine approved rates based
This report discusses how Applied Technology          on allowable costs were delinquent. ATSI submitted
Systems Incorporated’s (ATSI) failure to comply       their cost proposals for CYs 2004-2007 to OASAM
with Federal Regulations and contract provisions      in April 2009 and reached agreement with OASAM
resulted in overcharges to Job Corps of more than     on approved rates in September 2009.
$1.8 million in indirect costs. The report also
discusses process improvements ATSI, OASAM,           The indirect cost proposals submitted by ATSI
and Job Corps need to make to ensure indirect         included unallowable or unreasonable indirect
cost proposals are submitted annually and include     costs. Based on our audit, we determined that
only allowable costs as required. During the audit,   ATSI’s allowable indirect costs for CYs 2004-2007
ATSI was under contract with Job Corps to             totaled nearly $7.5 million, or $1.8 million less than
operate three Job Corps centers and was a             the $9.3 million charged to Job Corps.
subcontractor for two other centers. ATSI was also
under contract with Job Corps to provide Career       This occurred because ATSI violated Federal
Transition Services (CTS) to Job Corps students       Regulations and its contract provisions by failing to
in three States, and subsequently, was a              make proper indirect cost proposal submissions to
subcontractor for two of the three states.            OASAM; and neither OASAM nor Job Corps
                                                      performed follow up when ATSI failed to submit its
                                                      indirect cost proposals.
WHY THE OIG CONDUCTED THE AUDIT
Our audit objective was to answer the following
                                                      WHAT OIG RECOMMENDED
question:
                                                      We make five recommendations. In summary, we
                                                      recommend that OASAM and ETA recover the more
•    Did ATSI comply with Federal Regulations         than $1.8 million that was overcharged and direct
and ATSI contract provisions for reporting indirect   ATSI to establish procedures and training to ensure
costs?                                                indirect cost proposals are properly submitted. We
                                                      also recommend that OASAM and Job Corps clarify
Our audit work was conducted at ATSI’s                procedures for monitoring contractor compliance
headquarters in Cleveland, Ohio and at the            and ensuring contractors reimburse the government
Division of Cost Determination’s (DCD) national       for any overcharges.
office in Washington, D.C.
                                                      The Assistant Secretary for ETA and Deputy
READ THE FULL REPORT                                  Assistant Secretary for OASAM accepted our
To view the full report, including the scope,         recommendations and will require ATSI to provide
methodology, and full agency response, go to:         supporting documentation for the questioned costs
                                                      and any costs ATSI cannot support will be assessed
http://www.oig.dol.gov/public/reports/oa/2010/26-     as liquidated damages. ATSI expressed concern
10-006-370.pdf                                        about the accuracy of our findings and will conduct
                                                      research to provide additional supporting
                                                      documentation to OASAM and Job Corps.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
                                   Report No. 26-10-006-01-370
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 3


Objective — Did ATSI Comply with Federal Regulations and ATSI Contract 

            Provisions for Reporting Indirect Costs?.............................................. 5


         ATSI’s failure to comply with the FAR and contract provisions resulted in more 

         than $1.8 million in overcharges to Job Corps...................................................... 5


Finding — ATSI submitted late proposals and unallowable indirect costs resulting in 

           overcharges to Job Corps. ........................................................................... 5


Recommendations ...................................................................................................... 12


Exhibits


       Exhibit 1 ATSI’s Indirect Costs Based on Provisional Indirect Cost Rates ............ 15

       Exhibit 2 ATSI's Indirect Costs Based on Approved Indirect Cost Rates .............. 17


Appendices

       Appendix A Background........................................................................................ 21

       Appendix B Objective, Scope, Methodology, and Criteria..................................... 23

       Appendix C Acronyms and Abbreviations ............................................................. 27

       Appendix D OASAM and ETA’s Combined Response to Draft Report ................. 29

       Appendix E ATSI’s Response to Draft Report....................................................... 33

       Appendix F Acknowledgements ............................................................................ 39





                                                                       ATSI Overcharged Job Corps for Indirect Costs
                                                                                      Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
                                   Report No. 26-10-006-01-370
                                                        U.S. Department of Labor – Office of Inspector General




U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




September 24, 2010

                                Assistant Inspector General’s Report


T. Michael Kerr
Assistant Secretary
Office of the Assistant Secretary
  for Administration and Management

Jane Oates
Assistant Secretary
Employment and Training Administration

United States Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of indirect costs
charged to the Office of Job Corps (Job Corps) by Applied Technology Systems,
Incorporated (ATSI). Job Corps is an office within the Employment and Training
Administration (ETA). The Office of the Assistant Secretary for Administration and
Management (OASAM) and Job Corps share responsibility for the administration and
oversight of center/Career Transitional Services (CTS) contracts and financial
operations, including indirect costs. During the period reviewed, ATSI was under
contract with Job Corps to operate three Job Corps centers and was a subcontractor for
two other centers. ATSI was also under contract with Job Corps to provide CTS to Job
Corps students in three States and subsequently was a subcontractor for two of the
three states. This report includes the results of our audit relating to indirect costs and
expanded testing conducted in response to an October 2009 request by OASAM to
audit the indirect costs claimed by ATSI for Calendar Years (CYs) 2004-2007. 1

Indirect costs consist of Overhead and General and Administrative (G&A) expenses.
Contracted center/CTS operators include these expenses in monthly reports submitted
to Job Corps for cost reimbursement. The submitted amounts for Overhead and G&A
are estimates based on provisional indirect cost rates specified in each center/CTS
contract. Overhead expenses (e.g., labor, travel, consulting services) are variable with
the amounts allocated to each center/CTS operator based on the costs for direct labor
1
 The OIG issued separate reports on ATSI’s Cleveland Job Corps Center in September 2007 (Report # 26-07-003-
01-370) and ATSI controls over all its Job Corps centers in September 2008 (Report # 26-08-005-01-370). Both these
reports focused on ATSI direct costs. This report focuses on ATSI indirect costs for all its Job Corps centers and CTS
locations.

                                                                 ATSI Overcharged Job Corps for Indirect Costs
                                                          1                     Report No. 26-10-006-01-370
                                            U.S. Department of Labor – Office of Inspector General


(excluding fringe benefits) multiplied by the provisional rate. G&A expenses (e.g., office
rent, building depreciation, and accounting) are fixed with the amounts allocated based
on total contract costs (excluding G&A and contractor fee) multiplied by the provisional
rate.

Within six months after the end of its fiscal year, the operator submits an indirect cost
rate proposal to OASAM. OASAM reviews the support for the proposal and establishes
final indirect cost rates (approved rates) that reflect the allowable costs incurred during
the year. The contracts limit the indirect costs charged to Job Corps to the amounts
calculated using the provisional rates. If the indirect costs calculated with the “approved”
rates are less than costs calculated with the provisional rates, the operator must
reimburse the difference to the federal government. However, if the approved rates are
greater than the provisional rates the operator is not entitled to any additional money
because contracts limit the indirect costs charged to Job Corps to the amounts
calculated using the provisional rates.

Our audit objective was to answer the following question:

   •	 Did ATSI comply with Federal regulations and ATSI contract provisions for 

      reporting indirect costs? 


The audit covered nearly $9.3 million ATSI charged Job Corps (either directly or through
prime contactors in situations where ATSI was a subcontractor) for its estimated indirect
costs during calendar years (CY) 2004-2007. We interviewed ATSI, OASAM, and Job
Corps officials; reviewed Federal Acquisition Regulation (FAR) and contract
requirements for reporting indirect costs; assessed ATSI, OASAM, and Job Corps
controls for ensuring compliance; and analyzed cost data and the applicable provisional
and approved indirect cost rates. To determine indirect costs overcharged to Job Corps,
we reviewed OASAM’s assessment of ATSI’s indirect cost proposals for CYs
2004-2007 completed in September 2009; and tested 220 indirect cost transactions
totaling $809,207. We randomly selected 80 of the 220 transactions to assess the
potential for additional unallowable costs; and judgmentally selected 140 transactions
that we considered to be high risk. The high risk transactions included payments to
former owners, consulting fees, and travel and meal expenses. During the audit,
OASAM was in the process of reviewing ATSI’s 2008 indirect cost proposal and ATSI’s
2009 cost proposal was not yet due.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Additional background information is contained in Appendix A and our
audit objective, scope, methodology, and criteria are detailed in Appendix B in this
report.



                                                   ATSI Overcharged Job Corps for Indirect Costs
                                             2                    Report No. 26-10-006-01-370
                                           U.S. Department of Labor – Office of Inspector General


RESULTS IN BRIEF

ATSI did not comply with requirements for submitting indirect cost proposals or
reporting only allowable indirect costs, resulting in more than $1.8 million in overcharges
to Job Corps. ATSI used the provisional rates specified in its center/CTS contracts to
charge Job Corps nearly $9.3 million for its estimated indirect costs during CYs
2004-2007. ATSI violated the FAR and the terms of its contracts by failing to submit
indirect cost proposals to OASAM, and neither OASAM nor Job Corps performed
followup when ATSI did not submit indirect cost proposals within the required 6-month
timeframe. This prevented OASAM from negotiating approved indirect cost rates based
on allowable costs and identifying overcharges in situations where approved rates were
determined to be less than provisional rates.

As a result of our audit, OASAM notified ATSI that its cost proposals were delinquent.
ATSI submitted their CYs 2004-2007 cost proposals to OASAM in April 2009 and
reached agreement with OASAM on approved rates in September 2009. ATSI again
failed to comply with the FAR by including in its proposals transactions that were not
supported by any documentation or were supported by documentation that did not
provide adequate assurance that the costs were valid. The undocumented costs
included $429,579 claimed for consulting services provided by two former owners that
was part of a buy-out of their shares in the company, and $163,807 claimed for travel
and business insurance that did not have any supporting documentation. Because of
the deficiencies in ATSI supporting documentation, we were unable to determine the
value, if any, Job Corps received in exchange for the $429,579 and $163,807, and other
amounts claimed by ATSI.

Based on allowable costs, ATSI and OASAM negotiated approved indirect cost rates
that were sometimes lower than the provisional rates used by ATSI to charge Job Corps
for indirect costs. Specifically, 12 of the 21 approved Overhead rates and 4 of the 21
approved G&A rates were lower than the provisional rates used by ATSI. Based on our
audit, we determined that ATSI’s allowable indirect costs for CYs 2004-2007 totaled
nearly $7.5 million, or more than $1.8 million less than the $9.3 million charged to Job
Corps. ATSI needs to reimburse the more than $1.8 million to the federal government.

ATSI violated the FAR and its contract provisions by failing to make proper submissions
to OASAM relating to indirect costs. ATSI also failed to establish standard operating
procedures to ensure indirect cost proposals included only allowable costs and were
submitted annually as required by the FAR. The ATSI Chief Executive Officer told us
that ATSI displayed some incompetence with its indirect cost proposals and was taking
steps to correct the problems. This included replacing key corporate finance staff.
Additionally, DOL procedures regarding the Federal agency responsible for monitoring
indirect cost proposal submissions were not specific and OASAM and Job Corps
personnel we spoke to were unclear of their responsibilities. Both OASAM and Job
Corps believed the other was responsible for ensuring compliance and neither
monitored annual contractor submissions. OASAM and Job Corps also did not have
effective processes to ensure that any overcharges resulting from OASAM reviews


                                                  ATSI Overcharged Job Corps for Indirect Costs
                                             3                   Report No. 26-10-006-01-370
                                           U.S. Department of Labor – Office of Inspector General


would be reimbursed to Job Corps. Because of these deficiencies, ATSI was able to
obtain payments far in excess of what they were entitled to under the FAR and the
contract.

In summary, we recommend that OASAM and ETA coordinate with Job Corps to collect
the more than $1.8 million that was overcharged to Job Corps during CYs 2004-2007;
and direct ATSI to establish standard operating procedures to ensure indirect cost
proposals are submitted annually and include costs in accordance with the FAR and
with contract provisions. We also recommend that OASAM and Job Corps clarify
responsibilities and procedures for monitoring overall contractor compliance with FAR
requirements for the annual submissions of indirect cost proposals and ensure
contractors reimburse the government for any overcharges resulting from OASAM and
OIG reviews.

OASAM, ETA AND ATSI RESPONSES

In response to the draft report, the Assistant Secretary for ETA and the Deputy Assistant
Secretary for OASAM accepted our recommendations and stated that Job Corps, in
coordination with OASAM, will take the necessary corrective actions.

ATSI’s response to our draft report did not address our specific recommendations. ATSI
stated it was not given enough time to address the recommendations and expressed
concern about the accuracy of our findings. ATSI provided us with tables illustrating
alternative “ATSI scenarios” for calculating indirect costs. We reviewed the scenarios
and found the methodology and data used by ATSI to be questionable (e.g., rates used
exceeded the maximum provisional rates allowed by the contracts). Nothing ATSI
provided us caused us to change our conclusions.

RESULTS AND FINDING

ATSI billed Job Corps using the provisional rates specified in its center/CTS contracts to
charge Job Corps nearly $9.3 million for its estimated indirect costs during CYs
2004-2007. ATSI violated the FAR and contract provisions by failing to submit required
annual indirect cost proposals needed to determine approved rates and any amounts to
be reimbursed to the federal government; and neither OASAM nor Job Corps requested
the proposals when ATSI failed to submit the proposals within the 6-month timeframe
required by the FAR.




                                                  ATSI Overcharged Job Corps for Indirect Costs
                                            4                    Report No. 26-10-006-01-370
                                           U.S. Department of Labor – Office of Inspector General


Objective — Did ATSI Comply with Federal Regulations and ATSI Contract
            Provisions for Reporting Indirect Costs?

      ATSI’s failure to comply with the FAR and contract provisions resulted in more
      than $1.8 million in overcharges to Job Corps.

Finding — ATSI submitted late proposals and unallowable indirect costs resulting
                in overcharges to Job Corps.

ATSI violated the FAR and contract provisions by failing to submit indirect cost
proposals to OASAM for CYs 2004-2007. As a result, OASAM did not approve indirect
cost rates based on allowable costs and identify overcharges in situations where
approved rates were determined to be less than provisional rates. In April 2009, when
ATSI submitted indirect cost proposals for the 4-year period, it again failed to comply
with FAR requirements by including in the proposals transactions that were not
supported by any documentation or were supported by documentation that did not
provide adequate assurance that the costs were valid. We determined that ATSI’s
actions resulted in overcharges to Job Corps of more than $1.8 million in indirect costs.

ATSI violated the FAR and contract provisions by failing to make proper submissions to
OASAM relating to indirect costs. ATSI also did not establish standard operating
procedures to ensure indirect cost proposals included only allowable costs and were
submitted annually as required by the FAR. In addition, both OASAM and Job Corps did
not effectively monitor the timeliness of ATSI’s indirect cost proposal submissions, nor
did they have an effective process to ensure that ATSI (or prime contractors in
situations where ATSI was a subcontractor) would reimburse any overcharges resulting
from the determination of ATSI’s approved indirect cost rates. Because of these
deficiencies, ATSI was able to obtain payments far in excess of what they were entitled
to under the FAR and the contract.

Job Corps’ center/CTS contracts with ATSI and its Policy and Requirements Handbook
(PRH) required the operator to follow the provisions of the Federal Acquisition
Regulation for indirect costs as follows:

   •	 FAR Part 52.216-7 requires each contractor to submit indirect cost rate proposals
      to OASAM annually, within six months after the end of the contractor’s fiscal
      year. The Contractor and OASAM negotiate approved indirect cost rates based
      on the contractor’s allowable costs for the prior year.

   •	 FAR Part 31-2 requires contractors to maintain documentation, such as invoices,
      activity reports, and timesheets to support the proposals. The supporting
      documentation must be adequate to demonstrate that costs claimed have been
      incurred and are otherwise allowable.

ATSI’s center/CTS operator contracts state that the contractor owes the government the
difference between the costs calculated at the approved and provisional rates, if the

                                                  ATSI Overcharged Job Corps for Indirect Costs
                                            5                    Report No. 26-10-006-01-370
                                                           U.S. Department of Labor – Office of Inspector General


approved rates are lower. If the approved rates are greater than the provisional rates,
the contractor cannot claim reimbursement of the difference because the costs
calculated with the provisional rates are the maximum the contractor can charge Job
Corps for each center/CTS.

ATSI Did Not Submit Indirect Cost Proposals

ATSI used the provisional rates specified in its center/CTS contracts to estimate
Overhead and G&A expenses and charge Job Corps nearly $9.3 million for indirect
costs during CYs 2004-2007. 2 However, ATSI did not submit its annual indirect cost
rate proposals to OASAM for each year as required by the FAR. 3 Proposals for CY
2004 (due in June 2005), CY 2005 (due in June 2006), CY 2006 (due in June 2007),
and CY 2007 (due in June 2008) were not submitted. As such, OASAM did not approve
indirect costs rates based on allowable Overhead and G&A expenses. This prevented
the identification of overcharges in situations where the approved rates were less than
the provisional rates. Table 1 shows the amounts ATSI charged Job Corps for
Overhead and G&A expenses during CYs 2004-2007.

              Table 1: ATSI’s Indirect Costs Based on Provisional Rates

              CY                      Overhead                         G&A                    Totals
              2004                   $1,183,406                  $1,274,288               $2,457,694
              2005                    1,112,686                   1,290,870                2,403,556
              2006                      824,542                   1,105,592                1,930,134
              2007                    1,049,202                   1,419,607                2,468,809

                 Totals              $4,169,836                  $5,090,357               $9,260,193

See Exhibit 1 for detailed calculations using the provisional rates specified in ATSI’s
contracts with Job Corps.

Indirect Cost Proposals Were Not Supported

As a result of our audit OASAM notified ATSI that its cost proposals were delinquent.
ATSI submitted its indirect cost proposals for CYs 2004-2007 to OASAM in April 2009
and reached agreement on approved rates in September 2009. ATSI claimed nearly
$11.2 million in indirect costs for the 4-year period. 4 The proposals included more than
$872,000 in transactions that were not supported by any documentation and more than
$848,000 in transactions for which the support did not provide adequate assurance that
the costs were valid. Specific transactions that were not allowable included the
following:


2
  See Exhibit 1 for detailed calculations using provisional rates specified in ATSI’s contracts. 

3
  ATSI’s fiscal year coincides with the calendar year. 

4
  Although ATSI billed nearly $9.3 million in indirect costs based on its contracts’ provisional rates, ATSI’s indirect cost 

proposals submitted in April 2009 included nearly $11.2 million in claimed indirect costs. 


                                                                     ATSI Overcharged Job Corps for Indirect Costs
                                                             6                      Report No. 26-10-006-01-370
                                          U.S. Department of Labor – Office of Inspector General


   •	 $429,579 claimed as Overhead expense for consulting services provided by two
      former owners that was part of a buyout of their shares in the company. ATSI
      and the former owners entered into consulting agreements on the same day that
      the current owner bought out the former owners. The agreements did not provide
      specific scopes of work detailing work to be performed, hourly rates, or
      deliverable work products. An agreement for one former owner referred to ATSI
      making payments even if no work was performed. Similarly, the other former
      owner told us that ATSI was required to make payments regardless of whether
      any consulting services were performed. An invoice from this former shareholder
      stated that as part of the buyout, ATSI had a fixed-price contract agreement,
      which ATSI was obligated to pay as stipulated in the consultant agreement. ATSI
      could not provide evidence that Job Corps received any benefits from the
      consulting services, and Job Corps officials told us that they were not aware of
      any services the former shareholders provided.

   •	 $75,981 claimed as Overhead expense for travel/transportation and $87,826
      claimed as Overhead expense for business insurance without any supporting
      documentation.

   •	 $83,729 claimed as G&A expense for bank charges relating to interest payments,
      financing, and company restructuring costs.

   •	 $65,869 claimed as G&A expense for unallowable vehicle lease costs for the
      ATSI Chief Executive Officer’s personal use of a luxury vehicle.

OASAM tested a sample of claimed indirect costs and disallowed $576,875 in Overhead
charges and more than $1.1 million in G&A charges because the costs were
unallowable or unreasonable. Based on the allowable costs, ATSI and OASAM
negotiated approved indirect cost rates for CYs 2004-2007 that were sometimes
significantly lower than the provisional rates used by ATSI to charge Job Corps annually
for indirect costs. Specifically, 12 of the 21 approved Overhead rates and 4 of the 21
approved G&A rates were lower than the provisional rates used by ATSI. In these
instances the approved rates are used to determine allowable indirect costs rather than
the provisional rates. Table 2 shows that ATSI’s allowable indirect costs based on the
rates approved by OASAM totaled nearly $7.7 million.

        Table 2: ATSI’s Allowable Indirect Costs Based on Approved Rates

        CY               Overhead                G&A                           Totals
        2004            $1,145,877         $1,150,489                      $2,296,366
        2005               677,807          1,280,618                       1,958,425
        2006               462,242          1,105,592                       1,567,834
        2007               457,503          1,419,607                       1,877,110

          Totals        $2,743,429         $4,956,306                      $7,699,735


                                                 ATSI Overcharged Job Corps for Indirect Costs
                                           7                    Report No. 26-10-006-01-370
                                                         U.S. Department of Labor – Office of Inspector General




See Exhibit 2 for detailed calculations using negotiated approved rates.

In addition to OASAM’s review, we tested 220 indirect cost transactions totaling
$809,207 to determine if the costs were allowable in accordance with the FAR. 5 We
randomly selected 80 of the 220 transactions to assess the potential for additional
unallowable costs; and judgmentally selected 140 transactions that we considered to be
high risk. The high risk transactions included payments to former owners, consulting
fees, and travel and meal expenses. During the audit, OASAM was in the process of
reviewing ATSI’s 2008 indirect cost proposal and ATSI’s 2009 cost proposal was not yet
due.

We questioned the costs for 114 transactions, totaling $599,550, because the costs
were not supported as required. This amount included the $429,579 in improper
consulting fees paid to the former ATSI owners. During the audit, we notified OASAM of
improper consulting fees, and OASAM included $354,019 of the $429,579 paid to the
former owners in its review and disallowed the $354,019 they reviewed. As such, we
identified $245,531 ($599,550 - $354,019) in questioned costs that OASAM did not
include in its review. Accordingly, the additional $245,531 in questioned costs we
identified reduced ATSI’s allowable indirect costs from the $7,699,703 shown in Table 2
to $7,454,172 (or nearly $7.5 million).

Besides the payments to former shareholders, other examples of questionable
transactions we identified were as follows:

       •	 Four transactions totaling $56,182 were for travel/transportation allocated to four
          Job Corps Centers. ATSI classified the allocated travel/transportation account as
          a prepaid asset rather than an expense account. There were no receipts or
          supporting documents indicating that ATSI actually incurred the
          travel/transportation costs.

       •	 One transaction for $8,091 in business meals was charged to the Cleveland Job
          Corps Center for employees who attended a Leadership Conference in
          Cleveland. DOL regulations permit per diem for business meals only when the
          travel location is either 25 miles from the duty station or 40 miles from the
          employee’s residence. The conference location was less than 7 miles from the
          Cleveland Job Corps Center and no support was provided indicating that the
          travel location exceeded 40 miles from employee residences.

       •	 Fourteen other transactions were for business meals that exceeded allowable
          per diem amounts by $11,070. For these transactions, ATSI claimed $18,245
          and the allowable per diem totaled $7,175. FAR Part 31.2 limits amounts
          charged for meals to the per diem amounts.



5
    Our testing excluded ATSI’s claimed indirect costs that were reviewed by OASAM.

                                                                 ATSI Overcharged Job Corps for Indirect Costs
                                                          8                     Report No. 26-10-006-01-370
                                         U.S. Department of Labor – Office of Inspector General


OASAM’s procedures require that it renegotiate indirect cost rates with ATSI based on
our audit. We provided the results of our audit of ATSI’s indirect costs to OASAM.

ATSI’s Actions resulted in Overcharges to Job Corps of More Than $1.8 Million in
Indirect Costs

The approved rates negotiated by ATSI and OASAM were generally lower for Overhead
expenses and generally higher for G&A expenses. As such, the amounts overcharged
to Job Corps generally related to the amounts claimed for Overhead. Based on the
approved rates and our additional testing, we determined that ATSI’s allowable costs
during CYs 2004-2007 totaled about $7.5 million ($7.7 million based on the OASAM
approved rates less the $245,531 in questioned costs we identified). As such, Job
Corps was overcharged more than $1.8 million during the 4-year period. Table 3 shows
our calculation for the overcharged amounts.

             Table 3: ATSI Overcharged Job Corps More Than $1.8 Million

                                        Overhead                  G&A                 Totals
Costs Charged to Job Corps
Based on Provisional Rates 6            $4,169,836        $5,090,357            $9,260,193
Allowable Costs Based on
Approved Rates 7                      ($2,743,429)      ($4,956,306)          ($7,699,735)
          Overcharged Based on
                 Approved Rates         $1,426,407          $134,051            $1,560,458
Additional OIG Questioned Costs           $245,531                 0              $245,531

       Total Amount Overcharged         $1,671,938          $134,051            $1,805,989


ATSI, OASAM, and Job Corps Did Not Ensure Proposals Were Submitted and
Overcharges Reimbursed

ATSI’s late and improper indirect cost proposal submissions violated the FAR and its
contract provisions. ATSI also failed to establish standard operating procedures to
ensure indirect cost proposals included only allowable costs and were submitted
annually as required by the FAR. The ATSI Chief Executive Officer told us that ATSI
displayed some incompetence with its indirect cost proposals and was taking steps to
correct the problems. This included replacing key corporate finance staff.

In addition, OASAM and Job Corps personnel were unclear on their oversight
responsibilities, which also contributed to the late submission and overcharges to Job
Corps. During the audit, we found that neither OASAM nor Job Corps was aware that
ATSI was not complying with the requirement to submit annual indirect cost proposals.

6
 From Table 1.
7
 From Table 2.

                                                ATSI Overcharged Job Corps for Indirect Costs
                                           9                   Report No. 26-10-006-01-370
                                            U.S. Department of Labor – Office of Inspector General


OASAM officials told us that they believed Job Corps, as the technical representative for
the contracting officer was responsible for monitoring annual submissions. Job Corps
officials told us OASAM was responsible. The DOL Manual concerning indirect cost
policy was unclear regarding who was responsible for ensuring annual proposals were
submitted. As a result, neither OASAM nor Job Corps monitored the annual
submissions. OASAM and Job Corps officials subsequently agreed that OASAM’s
contracting officers were responsible.

Because of these deficiencies, ATSI was able to obtain payments far in excess of what
they should have been paid. Without proactive monitoring of contractor annual
submissions, contractors who’s own records indicate that their provisional rates are
higher than actual costs incurred can delay submitting indirect cost proposals and thus
delay or even avoid having to reimburse the government for any overcharges resulting
from the high rates.

DOL Had No Assurance that Overcharges Would Be Reimbursed

OASAM and Job Corps also did not have effective processes to ensure that
overcharges resulting from OASAM reviews would be reimbursed to the federal
government. OASAM’s Division of Cost Determination (DCD) negotiates with
contractors to reach agreement on approved indirect cost rates. However, DCD does
not distribute approved rates to OASAM’s responsible contracting officer or to Job
Corps’ contracting officer’s technical representative. DCD officials told us that they only
distribute approved rates to the contractor; and contracting officers and Job Corps
officials would have to contact DCD in order to obtain the approved rates.

OASAM needs to establish a process to ensure timely reimbursement of overcharges
resulting from the difference between provisional and approved indirect cost rates. Once
a contract is closed out, both the OASAM contracting officer and Job Corps lose
visibility over the contract and the potential for unreimbursed overcharges increases.
For example, we found one situation where a contract was closed out even though
approved rates for ATSI had not been negotiated. The contract for the Gary Job Corps
Center for which ATSI was a subcontractor was closed out on May 8, 2009, even
though the responsible OASAM contracting officer was not aware that ATSI did not
have approved rates. Since ATSI’s provisional Overhead and G&A rates for Gary were
greater than the approved rates, we determined that Job Corps was overcharged more
than $220,000 for ATSI’s overhead and G&A costs.

Both the contracting officer and Job Corps officials initially told us that since the
government had no binding legal relationship with ATSI as a subcontractor, they had no
responsibility for ensuring ATSI reimbursed any overcharges. We pointed out that since
both the prime and subcontracts were cost reimbursable type contracts, any
overcharges from ATSI would be included in the prime contractor’s billings to Job Corps
and Job Corps should be reimbursed for the overcharges. Job Corps subsequently
agreed, after contacting the Department of Labor Solicitor, and said that action would be
taken to recover the overcharges from the prime contractor’s current contract.


                                                   ATSI Overcharged Job Corps for Indirect Costs
                                             10                   Report No. 26-10-006-01-370
                                                          U.S. Department of Labor – Office of Inspector General




Similarly, action needs to be taken to recover overcharges amounting to more than
$723,000 for ATSI’s overhead and G&A costs for the two other Job Corps contracts--
Earle C. Clements (ECC) Job Corps Center and CTS--for which ATSI was a
subcontractor.

The $943,000 ($220,000+$723,000) was part of the more than $1.8 million that we
calculated Job Corps was overcharged for ATSI’s indirect costs. We believe that
procedures need to be established to ensure that prime contractors are billed for
overcharges resulting from the comparison of provisional and indirect cost rates that are
submitted by the subcontractor.

In response to our draft report, both the Assistant Secretary for ETA and the Deputy
Assistant Secretary for OASAM accepted our recommendations and stated that Job
Corps, in coordination with OASAM, will require ATSI to provide supporting
documentation for the more than $1.8 million in questioned costs. This will include
renegotiation with ATSI, as necessary, of applicable indirect rates for CYs 2004-2007.
Furthermore, Job Corps will require all center operators, including ATSI, to establish
policies and procedures regarding the proper submission of indirect cost proposals. Job
Corps and OASAM will also clarify their own policy and procedures for monitoring
contractor compliance and ensuring contractors reimburse the government for any
overcharges relating to indirect costs; and training will be provided to all DOL
contracting officers on their responsibilities for monitoring contractor compliance with
the FAR and contractor submission of indirect cost proposals. See Appendix D for
OASAM and ETA’s combined response in its entirety.

ATSI, in response to our draft report, expressed concern about the accuracy of our
findings. ATSI provided us with three tables illustrating alternative “ATSI scenarios” for
calculating its indirect costs. 8 We reviewed the scenarios and found the methodology
and data used by ATSI to be questionable. For example, in each of the three tables
ATSI used 11.23 percent to calculate the Cleveland center’s allowable indirect overhead
costs submitted to OASAM for CY 2004. The maximum rate allowed by the contract and
the CY 2004 rate approved by OASAM were both 9.514 percent. As such, ATSI’s use of
the improper higher rate overstated the Cleveland center’s allowable indirect overhead
costs by $64,346; or $421,098 (at 11.23%) minus $356,752 (at 9.514%). ATSI also
expressed concern about not having enough time to conduct its own research and
requested more time to provide supporting documentation. We provided ATSI with the
exceptions included in this report in October 2009, March 2010, and June 2010 and
asked them to confirm our exceptions or provide supporting documentation. In
response, ATSI provided some supporting documentation and we eliminated those
exceptions from our questioned costs. We also met with ATSI in July 2010 to obtain
feedback on an informal draft of this report we provided for discussion purposes. We did
not receive any additional support from ATSI. ATSI was provided a reasonable amount
of time to conduct its own research and provide supporting documentation. Our findings
and recommendations remain unchanged. However, as noted in OASAM and ETA’s
8
    See Exhibits A, B, and C on pages 36-38 of this report.

                                                                   ATSI Overcharged Job Corps for Indirect Costs
                                                              11                  Report No. 26-10-006-01-370
                                          U.S. Department of Labor – Office of Inspector General


response to our draft report, Job Corps and OASAM will provide ATSI another
opportunity to provide supporting documentation. See Appendix E for ATSI’s response
in its entirety.


RECOMMENDATIONS

We recommend the Assistant Secretary for Administration and Management and the
Assistant Secretary of Employment and Training coordinate with Job Corps to:

   1. Recover either from ATSI or the applicable prime contactor (in situations where
      ATSI was a subcontractor) the more than $1.8 million we calculated Job Corps
      was overcharged for ATSI’s indirect costs. This includes OASAM renegotiating
      approved Overhead rates with ATSI as may be needed based on the additional
      $245,531 in questioned costs we identified.

   2. Clarify policy and provide guidance and training to ensure that contracting
      officers monitor contractor compliance with the FAR regarding the requirement to
      submit indirect cost proposals to OASAM within 6 months of the conclusion of
      each of the contractor’s fiscal years.

   3. Establish a process to ensure timely reimbursement of overcharges resulting
      from the difference between provisional and approved indirect cost rates.

   4. Establish procedures to ensure that the prime contractor is billed for overcharges
      resulting from the comparison of provisional and indirect cost rates that are
      submitted by the subcontractor.

We also recommend the Assistant Secretary of Employment and Training direct Job
Corps to require ATSI:

   5. Establish policies and procedures that ensure compliance with FAR and contract
      requirements for submission of indirect cost proposals.

We appreciate the cooperation and courtesies that OASAM, Job Corps, and ATSI
personnel extended to the Office of Inspector General during the audit. OIG personnel
who made major contributions to this report are listed in Appendix G.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                 ATSI Overcharged Job Corps for Indirect Costs
                                           12                   Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                    ATSI Overcharged Job Corps for Indirect Costs
              13                   Report No. 26-10-006-01-370
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                         ATSI Overcharged Job Corps for Indirect Costs
                   14                   Report No. 26-10-006-01-370
                                                  U.S. Department of Labor – Office of Inspector General


                                                                                             Exhibit 1
ATSI’s Indirect Costs Based on
Provisional Indirect Cost Rates




1
 The base amounts for Overhead consist of ATSI’s direct labor costs, excluding fringe benefits. The base
amounts were multiplied by the provisional Overhead rates to obtain the estimated costs and amounts
charged to Job Corps for Overhead. The base amounts for G&A consist of contract costs excluding
contractor’s fee and G&A. The base amounts were multiplied by the provisional G&A rates to obtain the
estimated costs and amounts charged to Job Corps for G&A. In April 2009, ATSI provided the base
amounts for both Overhead and G&A to OASAM along with its claimed costs.
2
ATSI’s first Cleveland contract ended on July 31, 2005. ATSI’s second Cleveland contract began on
August 1, 2005.
3
    ATSI’s CTS contract ended March 31, 2006. ATSI became a CTS subcontractor on April 1, 2006.




                                                          ATSI Overcharged Job Corps for Indirect Costs
                                                   15                    Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
              16                   Report No. 26-10-006-01-370
                                                   U.S. Department of Labor – Office of Inspector General




                                                                                               Exhibit 2
ATSI's Indirect Costs Based on Approved
Indirect Cost Rates




1
 The base amounts for Overhead consist of ATSI’s direct labor costs, excluding fringe benefits. The base
amounts were multiplied by the negotiated approved Overhead rates to obtain the allowable indirect costs
for Overhead. The base amounts for G&A consist of contract costs excluding contractor’s fee and G&A.
The base amounts were multiplied by the negotiated approved G&A rates to obtain the allowable indirect
costs for G&A. In April 2009, ATSI provided the base amounts for both Overhead and G&A to OASAM
along with its claimed costs.
2
 In situations where the approved rate was higher than the provisional rate, the provisional rate was used
in the calculation since the provisional rate is the maximum a contractor can charge.
3
ATSI’s first Cleveland contract ended on July 31, 2005. ATSI’s second Cleveland contract began on
August 1, 2005.
4
    ATSI’s CTS contract ended March 31, 2006. ATSI became a CTS subcontractor on April 1, 2006.




                                                           ATSI Overcharged Job Corps for Indirect Costs
                                                    17                    Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
              18                   Report No. 26-10-006-01-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                      ATSI Overcharged Job Corps for Indirect Costs
                19                   Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
              20                   Report No. 26-10-006-01-370
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

OASAM is responsible for the overall implementation of the Department of Labor’s
procurement programs and ensures that these programs are performed in accordance
with the appropriate laws and regulations. OASAM also negotiates and issues indirect
cost rates based on guidance contained in the FAR on behalf of the Federal
Government. These negotiations are for organizations receiving a preponderance of
direct Federal funds from the DOL. The rates are established in a Negotiated Indirect
Cost Rate Agreement (NICRA) for cost reimbursable contracts.

ETA is responsible for contributing to the efficient functioning of the U.S. labor market
by providing high quality job training and employment.

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998
under the leadership of the National Director, supported by a National Office staff and a
field network of Regional Offices of Job Corps.

The purpose of Job Corps is to assist people ages 16 through 24 who need and can
benefit from a comprehensive program, operated primarily in the residential setting of a
Job Corps Center (JCC), to become more responsible, employable, and productive
citizens.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the U.S. Department of Labor by private companies through
competitive contracting processes, and by other Federal Agencies through inter-agency
agreements.

Applied Technology Systems Inc. (ATSI) operates or provides services to Job Corps
centers. Founded in 1989 and incorporated in 1992, ATSI has total revenue of about
$28 million annually all through government contracts. ATSI employs 800 people at its
centers and corporate headquarters in Cleveland, Ohio.




                                                   ATSI Overcharged Job Corps for Indirect Costs
                                             21                   Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
              22                   Report No. 26-10-006-01-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

   •	 Did ATSI comply with Federal regulations and ATSI contract provisions for 

      reporting indirect costs? 


The audit examined whether (1) indirect costs claimed by ATSI were allowable in
accordance with the FAR and ATSI contract provisions, (2) controls were in place to
ensure that only allowable costs were charged to Job Corps, and (3) disallowed costs
resulted in overcharges to Job Corps.

Scope

This report reflects the audit work conducted at OASAM’s Division of Cost
Determination located in Washington, D.C. and at ATSI’s corporate office located in
Cleveland, Ohio. The report reflects audit work pertaining to eight contracts for which
ATSI was either the prime or subcontractor. This report includes the results of our initial
audit work relating to indirect costs and testing conducted in response to an October
2009 request by OASAM to audit the indirect costs claimed by ATSI for CYs 2004-2007.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this audit in accordance with generally accepted government auditing
standards (GAGAS) issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Methodology

To accomplish our audit objective, we reviewed applicable criteria and compared the
requirements to ATSI’s claimed indirect costs. We also used a combination of analytical
procedures, staff and management interviews, and document examinations.

We reviewed contract and FAR requirements for reporting indirect costs; assessed
ATSI, Job Corps, and OASAM controls for ensuring compliance; and analyzed cost data
and the applicable indirect cost rates to determine whether the amounts charged to Job
Corps were allowable.



                                                  ATSI Overcharged Job Corps for Indirect Costs
                                            23                   Report No. 26-10-006-01-370
                                                      U.S. Department of Labor – Office of Inspector General


We interviewed OASAM, Job Corps, ATSI, and selected prime contractor officials to
determine whether ATSI complied with the criteria for claiming and reporting indirect
cost and ensuring that ATSI would provide timely reimbursement of overcharges.

We identified and evaluated OASAM, Job Corps and ATSI internal controls over the
monitoring and reporting of indirect costs. Recommendations 2 through 5 require
improvement to the internal control process.

In planning our audit, we considered internal controls related to the monitoring and
reporting of indirect costs, determined whether internal controls had been placed in
operation, assessed control risk, and performed tests internal controls to determine our
audit procedures for the purpose of achieving our objectives.

Our consideration of internal controls related to indirect costs would not necessarily
disclose all matters that might be reportable conditions. Because of inherent limitations I
internal controls, misstatements, losses, or non compliance may nevertheless occur and
not be detected.

We used work performed by OASAM to determine the impact of OASAM’s approved
rates on ATSI’s contracts. 9 We compared the provisional Overhead and G&A rates to
the approved rates, and used base amounts ATSI provided to OASAM to calculate the
amount of indirect costs that should have been charged to Job Corps (based on the
approved rates) and the amount of costs that were charged to Job Corps (based on the
provisional rates).

We reviewed work performed by OASAM regarding their review of ATSI’s indirect cost
proposals. We also traced selected costs through the ATSI’s corporate general ledger
accounts and examined supporting transactions (journal entries) and supporting
documentation to authenticate the recorded transactions. We used a combination of
statistical and non-statistical sampling to examine nearly 6,000 transactions which made
up the non-personnel portion of the indirect cost proposals for CYs 2005-2007 not
reviewed by OASAM.

Specifically, we obtained all general-ledger accounts and supporting transactions for the
non-personnel indirect cost categories not reviewed by OASAM that were included in
ATSI’s indirect cost proposals for CYs 2005-2007. We comprised a list of nearly 2,000
Overhead transactions and nearly 4,000 G&A transactions. We tested for completeness
by totaling the value of the transactions to the values reported in the general ledger
accounts and then comparing the general ledger account values to the values contained
in ATSI’s indirect cost proposals. We also determined that the computer-processed data
we reviewed was sufficiently reliable for our testing and reporting purposes. We tested
random samples of 40 transactions for each (80 total) to determine the potential for
additional disallowable costs. Based on the test results for G&A expenses, we
concluded that further testing was not needed because the number of exceptions we

9
 We did not audit the indirect costs reviewed by OASAM and relied on OASAM’s conclusions relating to disallowed
costs and the approved rates.

                                                              ATSI Overcharged Job Corps for Indirect Costs
                                                       24                    Report No. 26-10-006-01-370
                                             U.S. Department of Labor – Office of Inspector General


identified was low, and more than $1 million in additional disallowed G&A costs was
needed to negate ATSI’s use of the provisional rates to estimate and charge Job Corps
for the G&A costs. Our judgmental sample for Overhead included 14 transactions which
involved consulting fees paid to two former owners and 126 transactions that were
either valued at more than $1,000, or were lodging, transportation and meals
transactions valued at between $75 and $1,000 (our initial testing of the 40 Overhead
transaction disclosed problems with these three categories). We did not project the
results of our sample of Overhead expenses.

We limited our testing of the indirect costs to non-personnel expenses for CYs
2005-2007 for the following reasons:

     •	 The ATSI CEO had not acquired sole-ownership of ATSI until February of 2005,
        and the main problem with disallowed overhead costs pertained to consultant
        charges beginning in 2005.

     •	 Based on recently issued Job Corps audit reports and work we had performed
        during our prior audit of ATSI, we found that audits of personnel costs did not
        result in any significant findings. Therefore, we did not audit the personnel portion
        of the indirect costs claimed by ATSI in its indirect cost proposal for CYs 2004-
        2007.

(Note: we still included the 2004 comparison of approved versus contract provisional
Overhead and G&A rates in our audit.)


Criteria

We used the following criteria to perform this audit:

•	   Code of Federal Regulations
•	   Federal Acquisition Regulation
•	   Job Corps Policy and Requirements Handbook
•	   DOL Manual Series




                                                    ATSI Overcharged Job Corps for Indirect Costs
                                              25                   Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
              26                   Report No. 26-10-006-01-370
                              U.S. Department of Labor – Office of Inspector General


                                                                     Appendix C
Acronyms and Abbreviations

ATSI                         Applied Technology Systems, Incorporated

CEO                          Chief Executive Officer

CFR                          Code of Federal Regulations

CFO                          Chief Financial Officer

COTR                         Contracting Officer’s Technical Representative

CTS                          Career Transitional Services

CY                           Calendar Year

DOL                          Department of Labor

DCD                          Division of Cost Determination

ECC                          Earle C. Clements

FAR                          Federal Acquisition Regulation

G&A                          General and Administrative

GAGAS                        Generally Accepted Government Auditing
                             Standards

GSA                          General Services Administration

JCC                          Job Corps Center

OA                           Office of Audit

OASAM                        Office of the Assistant Secretary for
                             Administration and Management

OH                           Overhead

OIG                          Office of Inspector General

PRH                          Policy and Requirements Handbook

WIA                          Workforce Investment Act


                                     ATSI Overcharged Job Corps for Indirect Costs
                               27                   Report No. 26-10-006-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    ATSI Overcharged Job Corps for Indirect Costs
              28                   Report No. 26-10-006-01-370
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
OASAM and ETA’s Combined Response to Draft Report




                                         ATSI Overcharged Job Corps for Indirect Costs
                                   29                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 30                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 31                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 32                   Report No. 26-10-006-01-370
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix E
ATSI’s Response to Draft Report




                                         ATSI Overcharged Job Corps for Indirect Costs
                                   33                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 34                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 35                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 36                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 37                   Report No. 26-10-006-01-370
U.S. Department of Labor – Office of Inspector General




       ATSI Overcharged Job Corps for Indirect Costs
 38                   Report No. 26-10-006-01-370
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Robert Richardson
(Audit Manager), James Turkvant (Auditor-in-Charge), Cory Grode, Sheila Lay, Lorenzo
Thornton, Travis Williams, and Alvin Edwards.




                                               ATSI Overcharged Job Corps for Indirect Costs
                                         39                   Report No. 26-10-006-01-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

        Online:       http://www.oig.dol.gov/hotlineform.htm
        Email:        hotline@oig.dol.gov

        Telephone:	   1-800-347-3756
                      202-693-6999

        Fax:          202-693-7020

        Address:      Office of Inspector General
                      U.S. Department of Labor
                      200 Constitution Avenue, N.W.
                      Room S-5506
                      Washington, D.C. 20210
